                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

     Case Number: I05070029                                                                    Page 1 of 1



          This investigation was initiated based on a referral from an NSF program director, who notified
          us that the owner of a business' appears to be inappropriately acting on behalf of companies that
          are associated with a university.2 The program director said it is unclear if there is a separation
          between the business owner and the university and there maybe undisclosed conflicts between
          the business owner and the university.

          We contacted the general counsel for the university, who informed us that the business owner has
          not held an official position with the university since 1995. The general counsel stated t F t the
          business owner does lease space from the university research and technology park. Since the
          business owner's only current connection with the university is a lease in a technology park, we
          find no evidence to support M h e r investigation.

           This matter is closed.




 '
11
 NSF OIG Form 2 (1 1/02)
